<html>
<title> - LEGISLATIVE HEARING ON H.R. 23, H.R. 601, H.R. 2188, H.R. 2963, H.R. 4843, H.R. 5037, AND H.R. 5038</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                LEGISLATIVE HEARING ON H.R. 23, H.R. 601,
               H.R. 2188, H.R. 2963, H.R. 4843, H.R. 5037,
                            AND H.R. 5038
----------------------------------------------------------------------------

                               HEARING

                             before the

                   COMMITTEE ON VETERANS' AFFAIRS

                      HOUSE OF REPRESENTATIVES

                SUBCOMMITTEE ON DISABILITY ASSISTANCE
                        AND MEMORIAL AFFAIRS

                     one hundred ninth congress

                            second session

                                -------

                             April 6, 2006

                                ------

         Printed for the use of the Committee on Veterans' Affairs

                          Serial No. 109-44

                    U.S. GOVERNMENT PRINTING OFFICE
27-515                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>


       Legislative hearing on H.R. 23, H.R. 601, H.R. 2188, H.R. 2963, 
                     H.R. 4843, H.R. 5037, and H.R. 5038


Thursday, April 6, 2006

U.S. House of Representatives,
Subcommittee on Disability Assistance and
 Memorial Affairs,
Committee on Veterans' Affairs,
Washington, D.C.


	The Subcommittee met, pursuant to call, at 1:00 p.m., in 334 
Cannon House Office Building, Hon. Jeff Miller [Chairman of the 
Subcommittee] presiding.

	Present:  Representatives Buyer, Miller, Berkley, Moran, 
Udall, Bradley, and Brown-Waite of Florida.

	Mr. Miller.  If I could get everybody to take their seats, 
please.  Thank you very much.  This hearing will come to order.  I 
want to welcome all of you to our first legislative hearing of 
this year.  We do have a full plate on the agenda and so I am 
going to highlight each bill briefly for you before recognizing 
Ms. Berkley, if she is able to arrive in time because 
unfortunately she is over at an International Relations Committee 
hearing as well.
	H.R. 23, the Belated Thank You to the Merchant Mariners of 
World War II Act of 2005, would direct the Secretary of Veterans 
Affairs to pay a monthly, tax-free benefit of $1,000 to certain 
honorably discharged veterans of the U.S. Merchant Marine or to 
their survivors.
	H.R. 601, the Native American Veterans Cemetery Act, would 
authorize the Secretary of Veterans Affairs to make grants to 
tribal organizations to assist them in establishing, expanding, or 
improving veterans' cemeteries on trust lands.
	H.R. 2188 would authorize the placement of memorial markers 
in a Department of Veterans Affairs national cemetery for the 
purpose of commemorating servicemembers or other persons whose 
remains are interred in an American Battle Monuments Commission 
cemetery.
	H.R. 2963, the Dr. James Allen Disabled Veterans Equity Act, 
would allow certain veterans who receive disability compensation 
of at least ten percent for impairment of vision in one eye to be 
eligible to receive such compensation for impairment of vision in 
the other eye that is deemed not related to their military 
service.
	H.R. 4843, the Veterans' Compensation Cost-of-Living 
Adjustment Act of 2006, would increase effective December 1, 2006, 
the rates of disability compensation and dependency and indemnity 
compensation.
	H.R. 5037, the Respect for America's Fallen Heroes Act, would 
prohibit demonstrations within 500 feet of a national cemetery and 
Arlington National Cemetery during a funeral service.  Violation 
of the prohibition would be punishable by up to a year 
imprisonment under title 18 of the United States Code.
	And finally, last on the agenda would be H.R. 5038, the 
Veterans Memorial Markers Act of 2006.  This bill provides 
government markers for veterans who died between November 1, 1990 
and September 10, 2001, and who are interred in a private 
cemetery.  It would extend through December 31, 2007 the current 
authorization for government markers for veterans interred in a 
marked grave at a private cemetery.  It would also authorize the 
placement in a national cemetery of a memorial marker for 
dependent children who would otherwise be eligible for burial but 
whose remains are unavailable.
	Ms. Berkley is not with us at this time.  Mr Udall, do you 
have a statement for the record?
	Mr. Udall.  No.  Ms. Berkley is trying to make it.  And we 
would just put her statement in the record, Chairman Miller.
	Mr. Miller.  Very good.  I would like to recognize 
Congressman Moran for an opening statement.
	Mr. Moran.  Mr. Chairman, thank you very much.  I appreciate 
the opportunity to be here on all these issues.  I particularly 
wanted to point out the legislation introduced by the gentleman 
from Michigan, Mr. Rogers and Chairman Buyer, the respect for 
America's Fallen Heroes Act.  This is an issue that we have 
encountered in Kansas many times.  And I am interested in hearing 
the testimony and the story of your legislation.
	And I would also like to point out, Mr. Chairman, that as a 
response to the protests that are occurring at funerals across the 
country, a group of military retirees and veterans have created 
beginning in Mulvane, Kansas the Patriot Guard.  And these are 
motorcyclists, motorcycle riders who have traveled the country at 
the request of families of fallen soldiers to provide a shield or 
a buffer between the protesters and the family and those who are 
attending the services.
	And I have introduced a resolution commending the Patriot 
Guard and would welcome Mr. Rogers' and others support of that 
resolution.  We hope to have that legislation on the House floor 
in the near future, again, just recognizing a group of Americans 
who have responded to what in many circumstances have become a 
very difficult circumstance.  I have been to funerals in Kansas in 
which the protests have occurred and which the Patriot Guard has 
been there.  And it is a wonderful sight to see the hundreds, if 
not thousands, of motorcycles, flags flying, and see their 
response of revving their motors to drown out the sound of the 
protesters really in tribute to soldiers and their 
families.
	So I commend you for your efforts in trying to correct a 
situation we face in our State -- 
	Mr. Buyer.  Would you yield?
	Mr. Moran.   -- and states across the country.  And I happily 
yield to the gentleman from Indiana.
	Mr. Buyer.  I want to thank you for bringing up the Patriot 
Guard, the riders.  I also want to thank Mr. Miller, Mr. Rogers, 
and Mr. Reyes.  You know someone could also interpret whether 
these, under the law, whether those riders could also be 
considered demonstrators.  And so we wanted to make sure that the 
law is drafted in a manner whereby these individuals who come to 
the defense of the family could not be subject to penalty under 
the legislation.
	So I just wanted to point out they have been very thoughtful 
in the drafting of the legislation.  I yield back to the 
gentleman.
	Mr. Moran.  Thank you.  I appreciate you pointing that out.  
I was aware of that and pleased with that.  And, again, the 
Patriot Guard only arrive at the request of the families of these 
soldiers.  And I am honored to have with us today two of my 
constituents, Loren and Lynette Stenzel from Ness City, Kansas, 
who are members of the Patriot Guard.  And I recognize them and 
hundreds and really thousands of other Kansans and Americans who 
have responded to this circumstance.  And I yield back the balance 
of my time.
	Mr. Miller.  Thank you very much, Mr. Moran.  Your continued 
presence and work on this Committee is greatly appreciated.  I do 
want to recognize, for those in the audience who may not recognize 
him, the Chairman of the full Committee, who is going to be with 
us this afternoon, Chairman Steve Buyer.  I take it from nodding 
your head a minute ago you do not have an opening statement.  But 
I think you will be participating in some of the questioning that 
will take place a little later on.
	What we will do is we will give Ms. Berkley an opportunity, 
when she gets here, to have her statement either entered into the 
record or give her a chance to give it.
	Testifying first are the chief sponsors of many of the bills 
that we have on the agenda today; they are sitting at the front 
table.  I would like to take a minute and recognize everybody that 
is up there and then we will begin testimony.  Mr. Rogers has led 
the bipartisan effort to restrict demonstrations at national 
cemeteries and introduced H.R. 5037 on March 29th.  He represents 
the 8th congressional district in Michigan.
	Mr. Chabot of the First Congressional District in Ohio will 
be testifying on H.R. 5037.  He is the Chairman of the 
Subcommittee on the Constitution at the Judiciary Committee.  He 
and his staff have been invaluable to Mr. Rogers and the Veterans' 
Committee in helping to draft this piece of legislation.  We thank 
you.
	We also thank Mr. Silvestre Reyes, a member of this 
Committee.  He represents the Sixteenth Congressional District in 
Texas and is a chief sponsor of H.R. 5037.
	Mr. Filner, a member of this Committee for 13 years, 
represents the Fifty-First Congressional District in California, 
and will be testifying on H.R. 23.
	Ms. Baldwin will be testifying on H.R. 2963, and she 
represents the Second Congressional District in the State of 
Wisconsin.
	Mr. Langevin, good to see you here.  Representing the Second 
Congressional District in Rhode Island, he will be testifying on 
his bill, H.R. 2188.
	And, finally, Mr. Udall, who is also a member of this 
Committee representing the Third Congressional District in New 
Mexico, and a member of the Subcommittee is going to be testifying 
on H.R. 601.
	Mr. Rogers we will begin with you, please.  And Mr. Udall, if 
you do not mind, we will wrap up this panel with your testimony.  
All of your full statements will be printed in the record of the 
hearing.  And we will hold our questions until each of you has 
testified.  So, Mr. Rogers, the floor is yours.

STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE 
	IN CONGRESS FROM THE STATE OF MICHIGAN

	Mr. Rogers.  Thank you very much, Chairman Miller. I 
appreciate this opportunity.  And let me thank you and Chairman 
Buyer and your staffs for the endless time and questions and 
talent and energy that you have dedicated to get this bill, and 
get this bill right.  Mr. Chabot has helped us certainly from his 
judiciary perspective.  And Silvestre Reyes has been a real 
champion in this effort and been very, very helpful.  Silvestre, 
who has been a friend in Congress, and we do not always agree, but 
we came together on this.  And thank you for your effort.
	I think it has led in this bipartisan way to get here today 
on something that I think is incredibly important.  And that is 
really the dignity of the individuals who are grieving for their 
loved ones for a fallen soldier, Marine, airman, woman or sailor, 
who has given their life in the defense of the United States of 
America and really what that means.
	And this bill, Mr. Chairman, protects the First Amendment.  
But it also protects the family.  And really what this is 
America's chance to put our arms around these families and tell 
them we love them, we appreciate it, we certainly appreciate their 
sacrifice.  And we will allow you the dignity and peace to lay to 
rest your loved one and have a celebration of their life and their 
sacrifice for their country.
	I happened to witness that personally in a town called 
Flushing, Michigan.  At a very small town, where Sergeant Joshua 
Youmans was going to his final resting place.  And to see the vile 
hatred, the taunting, the jeering, of these families goes beyond 
the pale of any sense of decency I have ever seen.  And when you 
look at what the family is going through to get to that part of 
their life; and certainly the grief and all of the emotions they 
are going to have to deal with, the one thing they should not have 
to deal with in this country are people trying to steal their 
ability for a peaceful service and ceremony.  And they 
accomplished exactly that when they showed up that day.
	And here was in contrast this young-20's mother of a very 
young baby, who Sergeant Youmans got to hold one time in his arms 
when he died just a few days later, give the eulogy for her 
husband in a room packed with National Guard soldiers, friends and 
family, mourners, supporters, great Americans and patriots.  The 
courage that she showed in the pulpit that day talking about her 
soul mate, her loved one, her husband, the pride that she was 
going to instill in their young child and what their father had 
done and the service he had given to his country.
	And to juxtapose that courage, Mr. Chairman, with what was 
happening outside, the jeers, and the taunting, and the songs that 
are not fit for public consumption, it did not take long to come 
to the conclusion that we have to do better by these families in 
America.  And we can do better by these families in America.  And 
I think this bill represents that.
	You know, just since we started this, just in my office 
alone, and I know other members here got e-mails in support, we 
have over 25,000 e-mails of support just since we started talking 
about this.  That is just in my office, Mr. Chairman.  That does 
not count all the other members.  And the comments are very 
touching and very powerful and very strong in support of these 
families, of these military members who have given their lives, 
and what we need to do to give them their dignity back at these 
services.
	And, for the record, I brought about, I do not know, there is 
about 5,000 here, I think, in paper form.  We stopped printing 
them off and said I do not think the Chairman might appreciate 
25,000 individual sheets.  So we have gone ahead and put it on a 
CD, sir.  And without objection, I would like to submit that to 
the Committee on behalf of lots of Americans from Brighton, 
Michigan to Iraq to every state in the union celebrating what you 
are going to do here today.
	Mr. Miller.  And without objection, it is submitted to the 
Committee, but not for the printed record.
	Mr. Rogers.  Thank you, Mr. Chairman.  Believe me take some 
time and read just a few of these and you will be moved to tears 
before it is over.  And I just wanted to read a couple that we had 
pulled out, including one, sir, where I know you escorted the body 
back of this fine patriotic American.  And it was his mother, 
also, wrote in support of this.  And I am just going to read these 
two if I may, sir, for the record.
	And I quote, "Over the last six months my unit has taken over 
30 casualties in some of the most vicious areas south of Baghdad.  
The thought of their families having to face protesters after 
their memorials insights a rage I have never known before.  These 
'protesters' mock all that we have accomplished here.  The lives 
that have been forever changed and the lives that have been lost, 
using our most valued doctrines of faith and freedom as their 
defense.  I can not thank you enough for your dedication to this 
effort.  I can only hope that the colleagues in Congress will join 
in this battle."  End quote.  Sergeant Ashley A. Voss, Baghdad, 
Iraq.
	Just a second one, if I may, Mr. Chairman.  And I quote, 
"Thank you for creating and seeking to help grieving families of 
our American Heros.  My husband and I support this act 100 
percent.  Our son, Sergeant Trevor Blumberg, was killed in action 
in Iraq on September 14, 2003.  We know the pain and horror in 
losing a heroic son; no less to have to face cruel, inhumane 
people who cannot dignify your time of grief.  Please continue to 
place these families in America's hearts and America's minds.  
Nothing less is deserved.  Ms. Janet M. Blumberg, a proud parent 
of an American hero."
	Mr. Chairman, I do not know if we can say much more then that 
of those families who have given so much and really are pleading 
with us to please do something to allow them to have their dignity 
at this -- you know, it is probably the most trying moment of 
their lives.  Let us show them that we appreciate this sacrifice.  
That we will stand with them and we will proudly acknowledge their 
sacrifice for the defense of the United States of America.
	I will go ahead and submit a written statement, if I may, Mr. 
Chairman.  And I would yield back the balance of my time.
	Mr. Miller.  Your statement will be entered in the record, 
without objection.
	[The statement of Michael Rogers appears on p. 44]

	Mr. Miller.  Mr. Chabot. 

STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE
	IN CONGRESS FROM THE STATE OF OHIO

	Mr. Chabot. Thank you much, Mr. Chairman and members of the 
Committee.  I am very pleased to be an original cosponsor of H.R. 
5037, the Respect for America's Fallen Heroes Act, and to have 
helped author the bill along with Chairman Buyer and Chairman 
Miller and Representative Rogers and many others that have been 
involved in this.  As the Chairman of the House Subcommittee on 
the Constitution, my testimony today will focus on how the bill is 
fully consistent with the Constitution while fully protecting the 
respect and dignity of funerals held on and near national 
cemeteries.
	We are all painfully aware of the recent trend of 
demonstrations and protests occurring near military funerals on 
national cemeteries.  Such demonstrations are not compatible with 
the respect due to our nation's fallen heroes, and they should not 
be permitted under our nation's laws.  That is why I am here 
today.
	The first provision of H.R. 5037 prohibits demonstrations on 
national cemetery grounds, unless such demonstrations are approved 
by the cemetery director.  This provision, in my opinion, is 
clearly constitutional under judicial precedents, most recently 
Griffin v. Secretary of Veterans' Affairs.  In that case, the 
Federal Circuit Court of Appeals, just a few years ago, upheld as 
constitutional an existing federal regulation providing that "any 
service, ceremony, or demonstration, except as authorized by the 
head of the facility or designee, is prohibited" on Veterans' 
Affairs property.  The first precedent -- excuse me.  The first 
provision of H.R. 5037 simply codifies that principle in statute.
	The second provision of H.R. 5037 prohibits any demonstration 
within 500 feet of national cemeteries, within 60 minutes before 
or after a memorial service is held there, if the demonstration 
includes "any individual willfully making or assisting in the 
making of any noise or diversion that disturbs or tends to disturb 
the peace or good order of the funeral or memorial service or 
ceremony."  This exact language has been upheld as constitutional 
by the Supreme Court in the case of Grayned v. City of Rockford.
	The Supreme Court, upholding this language in the Grayned 
case, specifically cited and relied on Webster's definition of 
diversion which is "the act or an instance of diverting as the 
mind or attention from some activity."  Consequently, under this 
language, any demonstration that includes anyone whose conduct so 
much as tends to turn the heads of those participating in a 
funeral ceremony can be prohibited.
	At the same time, this language does not unconstitutionally 
draw distinctions regarding what demonstrations are allowed, and 
are not allowed, based on the content of the speech.  The Supreme 
Court, again in the Grayned case, upheld this precise language as 
constitutional because the language "contains no broad invitation 
to subjective or discriminatory enforcement."  Also, as the court 
stated in the Griffin case, "Because the judgments necessary to 
ensure that cemeteries remain sacred to the honor and memory of 
those interred or memorialized there may defy objective 
description and may vary with individual circumstances, the 
discretion vested in VA administrators is reasonable in light of 
the characteristic nature and function of national cemeteries."
	Judicial precedents also make clear that H.R. 5037 is 
constitutional because it is a reasonable time, place, and manner 
restriction.  As the Supreme Court in the Grayned case stated, 
"Reasonable time, place and manner regulations may be necessary to 
further significant governmental interests, and are permitted."
	The 500 foot, 60 minutes before and after prohibition of any 
diversionary protest in H.R. 5037 is clearly a reasonable time, 
place and manner regulation that furthers the significant 
governmental interest of protecting the sanctity of national 
cemeteries.  The significance of this governmental interest is 
clear in existing federal law.  Congress, by express statutory 
command, has long provided that national cemeteries shall be 
considered national shrines as a tribute to our gallant dead.
	Section 2(b) of the bill defines the term demonstration to 
include picketing, speeches, the use of sound amplification 
equipment, the display of placards, the distribution of leaflets, 
and similar conduct, unless they are an official part of the 
funeral ceremony.  This definition is sufficiently clear in my 
view and will not be struck down on the grounds that it is 
unconstitutionally vague.  Indeed, the Supreme Court has upheld 
laws using terms like demonstration, standing alone, without any 
definition whatsoever.
	In conclusion, let me say that all supporters of H.R. 5037 
are asking is that the families and friends of our nation's fallen 
heroes be given a few hours of peace within which to honor their 
loved ones' ultimate sacrifice.  A few hours to pay respect to a 
selfless life devoted to protecting others.  That is not 
unconstitutional.  That is not even an imposition.  That is the 
least we can do for those who have fought and given their life to 
uphold the Constitution.
	I urge all my colleagues to join me in supporting this bill, 
which will give the families of those who have died the comfort of 
knowing that they will be able to pray in peace and thank the 
fallen on and near the sacred ground where they will rest forever 
so that we can live free today.  I yield back the balance of my 
time.
	Mr. Miller.  Thank you very much, Mr. Chabot.  Mr. Reyes.
	[The statement of Steve Chabot appears on p. 46]

STATEMENT OF HON. SILVESTRE REYES, A REPRESENT-
	ATIVE IN CONGRESS FROM THE STATE OF TEXAS

	Mr. Reyes.  Thank you, Mr. Chairman.  I appreciate the 
opportunity to speak on H.R. 5037, Respect for America's Fallen 
Heroes Act.  I have a statement for the record that, if you would 
enter it.
	Mr. Miller.  Without objection.
	Mr. Reyes.  And I will try to just summarize some of the 
major points.  Before I get into my comments I want to thank you, 
Mr. Chairman.  As you mentioned, I am a proud member of this 
Committee.  Have been since I have been in Congress.  This is my 
tenth year.  And I first heard about this issue and I can remember 
the day because we were taking testimony when Chairman Buyer made 
mention of this on the issue of the IT System for the Department 
of Veterans' Affairs.  And, frankly, when I was hearing our 
Chairman talk about this, I was sitting there incredulous that -- 
I was saying to myself this cannot be right.  I mean this 
information just does not register either as a parent, as a 
grandparent, or as an American.  It cannot be possible that there 
are those among us in this country that would use their First 
Amendment guarantees to prey on grieving families like this.
	But, sure enough, as we looked into it, it was everything 
that our Chairman said was facts.  In fact, I think the Chairman 
announced that day that he was going to a funeral and be there to 
help the parents of the soldier.
	Ironically enough, six days ago, Mr. Chairman, we in our 
community suffered our 22nd casualty.  Sergeant Israel DeVora of 
Clint, Texas in my District was killed in Baghdad on April 1st.  
This is what I think is most important in this legislation.  And I 
appreciate my colleagues articulating what the legislation says.  
But, the important point to remember for us is that when people 
are at their most vulnerable, and certainly those who have lost a 
loved one are, I can remember when one of my brothers was killed 
by a hit and run driver many, many years ago, seeing my mom cry.  
My mom passed away two years ago, and up until her death for some 
35 years, she cried for my brother, Eduardo.
	So losing a son or a daughter is a tremendous blow to a 
parent.  Having people exploit that for political purposes or for 
whatever purposes they may try to justify these actions is, for 
me, a most despicable, lowest form of preying that there is on the 
vulnerabilities and the misfortune of others.
	I can tell you, Mr. Chairman, and I want to thank my good 
friend and colleague, Mike Rogers, because as he said sometimes we 
do not agree on the politics of everything here.  But I can tell 
you that there has not been a single member of Congress that I 
have approached to cosponsor this legislation that has turned me 
down.  I think that speaks volumes about the outrage that we all 
share on this particular issue.
	So I am proud to be here this afternoon to lend my support.  
And I am proud to be the lead Democrat on this legislation because 
while there may be other pieces of legislation that affect more 
people that we pass here in Congress, this legislation speaks to 
those that have made, in their own way, their own ultimate 
sacrifice on behalf of our freedoms.  And ironically enough, 
guarantee that these misguided individuals can take those freedoms 
to an extreme that most of us find so despicable and distasteful.  
And so with that, Mr. Chairman, I appreciate the opportunity to be 
here and share those comments.  And I yield back my time.
	[The statement of Silvestre Reyes appears on p. 52]

	Mr. Miller.  Thank you for your service, Mr. Reyes.  Mr. 
Chairman do you have questions that you would like to pose?
	Mr. Buyer.  Were you going to go with the entire panel first?
	Mr. Miller.  I would like to go between these individuals.
	Mr. Buyer.  I would, but I would yield to all the members 
without objection.
	Mr. Miller.  I would like to recognize you as the Chairman.
	Mr. Buyer.  All right.  One question I have, it is 
unfortunate that Mr. Chabot has left.  It deals with the issue on 
proportionality with regard to the sentencing.  Let me just turn 
to you, Mr. Rogers, because you are a former FBI agent.  You have 
devoted a lot of your life to title 18 and the enforcement of the 
federal code.  So with regard to making this a Class A 
misdemeanor, you have looked at the issue of proportionality.  If 
you could testify to that issue, please.
	Mr. Rogers.  Sure.  One of the reasons that we establish 
sentencing, and the difference between class A misdemeanors and 
felonies, and other distinctions in the law when it comes to 
punishment for conviction, is hopefully for deterrence.  And you 
hope that the sentence at some point reaches the level of 
deterrence for that particular crime.  Trafficking of liquor 
across interstate lines is a class A misdemeanor.  And fraudulent 
farm bonds is a class A misdemeanor.  Because it has a year in 
prison, up to a year in prison, which is a significant loss of 
freedom.  And equally as important is the $100,000 fine that can 
go with it.  That can be pretty devastating.  And sometimes the 
financial part of it can be as devastating as the time in jail.
	And in this case when we looked at what this means and what 
this crime ought to hold in relation to other crimes on the book, 
class A misdemeanor, a year in jail and a $100,000 fine, we felt 
fit the needs and the proportionality to cause a deterrence for 
people violating the law.
	Mr. Buyer.  A Class B misdemeanor would be what?
	Mr. Rogers.  It could be  -- 
	Mr. Buyer.  Six months, $10,000.
	Mr. Rogers.  Six months to $1,000.  There are some three -- 
	Mr. Buyer.  $10,000 fine?
	Mr. Rogers.   -- month conditions under a class B 
misdemeanors and likely would not, quite frankly, in a federal 
system would be very difficult to find a class B misdemeanor where 
you would actually do jail time or get the maximum fine.  So this 
would at least leave the judge with, obviously when you argue the 
severity of what this does to the family, to give that year in 
jail.
	Mr. Buyer.  So these are individuals prosecuted by the U.S. 
Attorney's office into U.S. Magistrate's court or referred to U.S. 
District Court if they choose.
	Mr. Rogers.  That is correct.
	Mr. Buyer.  On the -- the other question I have is when 
Chairman Chabot testified with regard to time, place, and manner 
restrictions to further a significant government interest.  I 
would like to ask the two lead cosponsors, in your belief, what 
would be the significant government interest?
	Mr. Rogers.  Well, two things.  First, I think the most 
obvious is how we treat the fallen soldiers who have defended the 
United States of America.  Our government interest is to provide 
that buffer of peace, decency, dignity, and respect.  They have 
the right to bury their loved ones in peace and dignity.
	And the interest in this is saying we believe that that 
bubble ought to exist.  And we do it in other places in the law.  
We believe that bubble ought to exist for this very -- special is 
probably the wrong word, Mr. Chairman.  But this unique event in 
someone's life that they have to go through this, God forbid, and 
bury a loved one who is a military fallen hero.
	We also protect that significant government interest in the 
First Amendment by laying down a framework of place, time, and 
manner.  An hour before.  If you want to circle the cemetery an 
hour before at a 500 foot distance and spew your hate and 
discontent, you can do that under the United States Constitution, 
and we preserved that right in this bill.
	But you cannot do it in a manner that does not allow these 
families that peace and that dignity.  And I think that is a 
compelling government interest.
	Mr. Buyer.  Mr. Reyes.
	Mr. Reyes.  I also think that a compelling government 
interest in this speaks to the fact that there are -- the conduct 
of these people is so reprehensible that there are hundreds of 
thousands of Americans that are outraged, including veterans 
organizations.  And they are looking for us to show some 
leadership and to show an effort to protect those families.  
Because in the minds and eyes of our veterans community, it could 
be their families sitting there were circumstances different.
	So like my colleague, Mr. Rogers, we have gotten hundreds and 
hundreds of e-mails and letters.  I have been contacted in my 
district by not just veterans groups, but by individuals and non-
veterans that are outraged that this is going on and that the 
possibility that they may have to take some action locally, as I 
just mentioned our 22nd casualty on April 1st.  And so they look 
to us to be able to take some action to provide that protection 
for the families.
	Mr. Buyer.  Thank you.  Chairman Miller and Mr. Reyes and Mr. 
Chabot, I think that you have narrowly tailored your legislation 
to further the significant government interests in setting the 
standards of decency with regard to our federal lands.  The 
federal government owns those lands.  And so you have not been -- 
you are not overreaching with regard to veterans state cemeteries 
and I want to applaud your actions to encourage states to act and 
set those standards.  I yield back my time.
	Mr. Miller.  Thank you very much, Mr. Chairman.  We 
appreciate your leadership and guidance at the full Committee 
level.  Mr. Udall, do you have any questions?  Mr. Moran.
	Mr. Moran.  No, Mr. Chairman.
	Mr. Miller.  Mr. Bradley.
	Mr. Bradley.  I would just thank the sponsors of the 
legislation and in particular salute you for your bipartisan 
approach on this very important issue.  And I look forward to 
being a cosponsor of this bill, Mr. Rogers, this afternoon, 
please.
	Mr. Rogers.  Sure.  I appreciate it.  Thank you.
	Mr. Bradley.  Thank you.  So it is on the record, it will be 
done.
	Mr. Miller.  Ms. Brown-Waite.
	Ms. Brown-Waite of Florida.  Thank you, Mr. Chairman.  I have 
a veterans cemetery in my area and I think any one of us who have 
attended a service either back at a veterans cemetery or here at 
Arlington know the absolute need for it to be a moment for the 
family.  And a moment for every American to thank those who gave 
the ultimate sacrifice.  I commend you for this bill and I am 
going to contact the members of the state legislature and ask them 
to implement the same kind of rules.  They are still in session 
right now and I think that it is a logical follow through.  And I 
thank you for your leadership on this.  And I have already said I 
would cosponsor.
	Mr. Rogers.  Thank you.  If I may respond as well.  And one 
of the reasons that we called for the states to do this is because 
there has been so much work by so many on the counsel and the 
Committee and others, the members, Mr. Chabot and Mr. Reyes and 
Mr. Buyer and Mr. Miller, on the constitutionality of this.  To 
encourage the states to pass something that looks a lot like this 
will stand the test.  We have noticed some states have over 
reached a little bit.  They are going to be taken to court.  And 
our worry is they will be struck down.  If they follow what we 
have done here and take advantage of all of the effort that has 
been put into this bill, we will have a 50 state -- all 50 states 
will have legislation that protects these families at the funeral 
homes, national cemeteries, at other cemeteries as well.  And I 
encourage you to do that and thank you very much.  And I think 
that is an important part of this bill we did not get a chance to 
talk about today.
	Mr. Miller. Thank you very much.  We will move to the next 
bill by Mr. Filner, who is next up.  You are recognized.  And if I 
could, also, while we are moving to Mr. Filner, make note that a 
member of our Subcommittee is not with us today.  Mr. Evans, as 
everybody knows, has made an announcement that he will be leaving 
Congress after the end of his term.  I would ask that each of our 
members keep him in our thoughts and in our prayers as he goes 
through a very difficult time in his life.  His service is to be 
commended not only to this nation, but to this Congress and this 
Committee.  Mr. Filner.

STATEMENT OF HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM 
THE STATE OF CALIFORNIA

	Mr. Filner.  Thank you, Mr. Chairman.  Thank you for those 
words for Mr. Evans.  And thank you for giving us the opportunity 
to talk about our respective bills.  Mine is H.R. 23, the "Belated 
Thank You to the Merchant Mariners of World War II Act."  Mr. 
Chairman, you have Democrats and Republicans here at the table.  
These are all bipartisan bills, and I appreciate the spirit in 
which you allow us to participate with you.  I certainly, as a 
member of this Committee, will pledge that we will try to continue 
that spirit of bipartisanship that you have exemplified here 
today.
	The story of the World War II United States Merchant Marines 
is a story of patriotism, of youthful exuberance, of dedication to 
duty, of pride in a job well done, of bravery in the midst of 
battle, and sadly, of a nation who forgot these heroes for over 40 
years after the war's end.
	World War II Merchant Mariners suffered the highest casualty 
rate of any of the branches of service while they delivered 
troops, tanks, food, airplanes, fuel and other needed supplies to 
every theater of the war.  Troops were trained and supplies, 
ammunition, and equipment were manufactured in the U.S. and used 
overseas.  The Merchant Mariners were the necessary link between 
the two.  Without them, we would not have been able to win the 
war.  It is as simple as that.
	The Merchant Mariners took part in every invasion, from 
Normandy to Okinawa, often becoming sitting ducks for enemy 
submarines, mines, bombers, and kamikaze pilots.  Fighting was 
particularly fierce in the Atlantic, where German submarines and 
U-boats prowled the ocean, destroying Merchant Marine ships in an 
attempt to isolate Great Britain.
	Compared to the large numbers of men and women serving in 
World War II, the numbers of the Merchant Marines were small, but 
their chance of dying during service was extremely high.  
Estimates range up to 1,500 for the number of ships that enemy 
forces sank; 9,300 Mariners lost their lives; 600 were POWs; 
11,000 were injured.
	Yet an injustice was inflicted on this group of World War II 
veterans.  All volunteers, once approximately 230,000 strong, the 
number of those currently living is estimated to be approximately 
10,000.
	This group of brave men was denied their rights under the GI 
Bill of Rights that Congress passed in 1945.  All those who served 
in the Army, Navy, Marine Corps, Air Force, or Coast Guard were 
recipients of benefits under the GI Bill.  Only the United States 
Merchant Marine was not included.
	The Merchant Marines became the forgotten service.  For four 
decades no effort was made to recognize their contribution.  The 
fact that these seamen had borne arms during wartime in the 
defense of their country seemed not to matter.
	After years of fighting the system and a court battle, some 
World War II Mariners finally received a watered down bill of 
rights in 1988.  But some portions of that GI Bill have never been 
made available to veterans of the Merchant Marine.
	What did this mean in practical terms?  First and probably 
most important, it meant no GI Bill educational benefits.  Instead 
of studying to become a lawyer, a teacher, a doctor, or a number 
of other life-long professions that require a higher education, 
many Merchant Mariners had to rely on their high school education 
to get them a job.  Lost opportunities, lost careers, lost wages 
were the results for the Merchant Mariners.
	No low interest home loans were available to Merchant 
Marines.  No lifetime compensation for related war injuries and 
disabilities, no use of VA hospitals, no priority for local, 
state, or federal jobs, no social security credit for wartime 
service.
	I know many of us, Mr. Chairman, have been able to achieve 
and become members of the middle class because of the GI Bill.  I 
had my first home when my father got back from World War II, and 
it was a dream come true for a family that had lived with 
relatives for most of their lives.
	I would say there is overwhelming support now in the Congress 
for this bill.  At last count this morning, a bipartisan list of 
248 Members of Congress had endorsed it.  There is support from 
coast to coast, from the City of Los Angeles, California to the 
City of New Bedford, Massachusetts, who have passed resolutions in 
support of H.R. 23.  Senator Ben Nelson of Nebraska has introduced 
the companion bill in the Senate.  A letter from Transportation 
Secretary Norman Mineta expressed gratitude for the service that 
these Mariners gave during World War II.  And I just received a 
letter this morning from a group of labor unions, the 
International Organization of Masters, Mates, and Pilots, the 
Marine Engineers' Beneficial Association, the American Maritime 
Officers, and the Seafarers International Union of North America, 
who have also endorsed this bill.  I would like to put that letter 
in the record, Mr. Chairman.
	Mr. Miller.  Without objection.
	[The attachment appears on p. 63]
	Mr. Filner.  While it is impossible for us to make up for 
over 40 years of unpaid benefits, I propose that this bill will 
acknowledge the service of the Veterans of the Merchant Marines 
and offer compensation for years and years of lost benefits.
	H.R. 23 will pay eligible veteran a monthly benefit of $1,000 
and that payment would also go to their surviving spouses.  Their 
average age is now 82.  Many have outlived their savings.  A 
monthly benefit to compensate for the loss of nearly a lifetime of 
ineligibility for the GI Bill would be of comfort and would 
provide some measure of security for veterans of the Merchant 
Marines.
	In the words of General of the Army and former President, 
Dwight D. Eisenhower, "When final victory is ours, there is no 
organization that will share its credit more deservedly than the 
Merchant Marine."  Franklin Roosevelt said, "The Mariners have 
written one of its most brilliant chapters of the war.  They have 
delivered the goods when and where needed in every theater of 
operations and across every ocean in the biggest, the most 
difficult, and most dangerous job ever undertaken."  And Douglas 
McArthur said about the liberation of the Philippines, "With us 
they have shared the heaviest enemy fire.  On these islands I have 
ordered them off their ships and into fox holes when their ships 
became untenable targets of attack.  At our side they have 
suffered in bloodshed and death.  They have contributed 
tremendously to our success.  I hold no branch in higher esteem 
than the Merchant Marine service."
	So, Mr. Chairman, again, I thank you for allowing us to bring 
this bill for hearing today.  As everyone on the platform has 
cosponsored the bill, it is time to finally fix the injustices 
endured by our nation's Merchant Marines.  Thank you, sir.
	[The statement of Bob Filner appears on p. 54]

	Mr. Miller.  Thank you for your testimony.  Mr. Moran, do you 
have any questions?
	Mr. Moran.  Mr. Chairman, I have no questions.  I just 
commend the gentleman from California, Mr. Filner.  He has been an 
advocate for veterans of all services, all branches, for a long 
time.  And this is just one or more of his many efforts in regard 
to making certain that no one is left out in the recognition to 
the service to our country.  And I too am pleased to be a sponsor 
of this legislation.  I thank Mr. Filner for his efforts.
	Mr. Miller.  Mr. Udall.
	Mr. Udall.  Thank you.
	Mr. Miller.  Mr. Bradley.
	Mr. Bradley.  Ditto Mr. Moran's comments.  Thank you, Mr. 
Filner.
	Mr. Filner.  Thank you, sir.
	Mr. Miller.  Ms. Brown-Waite.
	Ms. Brown-Waite of Florida.  Whenever I am meeting with 
veterans throughout my district inevitably this issue comes up. 
	And we still thankfully do have a lot of veterans left who 
did serve in the Merchant Marine.  Certainly it is time to 
recognize their service and their great contribution.  And as you 
said, every member up here is on the bill.  And I think it is time 
we move it.  Thank you, Mr. Chairman.
	Mr. Miller.  Thank you very much.  I would also like to ask 
Mr. Filner, with your acknowledgment, if we could have any 
veterans who were Merchant Marines and are here today, if you 
would please stand.
	Mr. Filner.  Thank you, Mr. Chairman.
	Mr. Miller.  Thank you for your service.
	Mr. Filner.  They are going to be testifying at a later 
panel.
	Mr. Miller.  Very good.  Just asking for you all to stand.
	Mr. Miller.  They listen to you.  We do not.  Thank you very 
much, Mr. Filner.  Ms. Baldwin, you are next testifying on H.R. 
2963. 

STATEMENT OF HON. TAMMY BALDWIN, A REPRESENTA-
	TIVE IN CONGRESS FROM THE STATE OF WISCONSIN

	Ms. Baldwin.  Thank you, Mr. Chairman.  Mr. Chairman, members 
of the Subcommittee, I really appreciate this opportunity to 
address the Subcommittee on H.R. 2963, the Dr. James Allen 
Disabled Veterans Equity Act.  The bill that I introduced along 
with my co-author, Congressman Boozman, last year.  This bill 
addresses an inequity in the paired organ statute that has 
resulted in the denial of appropriate disability compensation to 
blinded veterans.
	This Committee and this Congress have rightly recognized that 
certain human organs or limbs are designed to work in pairs; 
hands, legs, kidneys, lungs, ears, and of course, eyes.  In the 
instance of eyes, blindness in one eye profoundly affects depth 
perception, even if sight is fully retained in the other eye.  The 
paired organ statute was written to assist those veterans who 
experience a service connected loss of a paired organ or limb.  
This statute recognizes the interdependency of paired organs and 
endeavors to treat the combined disability created by a non-
service connected loss, injury, or degeneration of the remaining 
paired organ or limb as though it were the result of a service 
connected disability.  In general, the paired organ statute 
accomplishes this task, with the exception of its treatment of 
loss of sight.
	I want to begin by telling you the story of Dr. James Allen, 
after whom this legislation is named.  Dr. Allen is a Professor of 
Ophthalmology at the University of Wisconsin Medical School in my 
district.  And he as worked at the Veterans' Affairs Hospital for 
33 years and treated numerous eye patients, including veterans who 
are blind.  One such example is Mr. Donald May.  Don is a World 
War II veteran who lost his right eye in a hand grenade explosion.  
A few years ago Mr. May became legally blind in the non-service 
connected left eye.  He applied to the Department of Veterans' 
Affairs for help and was denied further benefits.  He was told 
that the current law in regard to paired organs did not apply to 
him even though he was legally blind in his service connected 
right eye.
	After Dr. Allen brought the plight of his patients to my 
attention, I began to research why these veterans were being 
denied the benefits that I felt they deserved, benefits that I 
believe Congress intended to grant them.  Through my work with the 
Blinded Veterans Association, we discovered that while the current 
paired organ statute covers blindness, in practice few, if any, 
veterans have been able to qualify for compensation under its 
provisions.
	In theory the statute provides that when a veteran who is 
service connected for blindness in one eye could qualify for 
additional disability compensation if they became blind in the 
remaining eye for non-service connected reasons.  However, the 
statute does not define the term blindness, nor is any provision 
made for impairment of vision in the non-connected eye short of 
blindness.
	Rather than using the visual acuity of 20 over 200, as the 
definition of legal blindness that has been adopted by the way in 
all 50 states and by the Social Security Administration and the 
World Health Organization, the Department of Veterans' Affairs 
uses an obscure and much more restrictive 5 over 200 acuity for 
blindness, which is in rough layman's terms, the equivalent of 
having an eye with light perception only, no ability to perceive 
shapes, et cetera.  As a result, few, if any, blinded veterans are 
able to qualify for additional compensation under the paired organ 
statute.
	Consequently, I began to explore various options to address 
this inequity in current law.  H.R. 2963 allows veterans who 
receive veterans disability compensation for impairment of vision 
in one eye at the rate of at least ten percent to be eligible to 
receive additional disability compensation for impairment of 
vision in the eye that is not service connected.
	This change in law would affect only a small percentage, 
estimated to be roughly five percent of the some 13,100 veterans 
who are service connected for loss of vision in one eye.  Yet such 
a change would send a powerful signal to our nation's blinded 
veterans that the hardships they face are not forgotten.
	Once again I would like to thank the Chairman and Ranking 
Member and Subcommittee for the opportunity to appear on behalf of 
the Dr. James Allen Disabled Veterans Equity Act.  It is certainly 
a modest but important step in restoring fair treatment to those 
blinded due to their service to our country and to further our 
commitment to 
them.  Their sacrifices and service to this nation should be 
matched by our desire to improve quality of life for them and for 
their families.  And I look forward to working with you to advance 
this legislation.  Thank you, again, Mr. Chairman.
	[The statement of Tammy Baldwin appears on p. 65]

	Mr. Miller.  Thank you very much.  Questions from the 
Subcommittee.  Mr. Udall.
	Mr. Udall.  No question.
	Mr. Miller.  Mr. Moran.
	Mr. Moran. Nothing other than to indicate to Ms. Baldwin my 
appreciation for her bringing this interest -- this issue to my 
attention.  I had not thought about this particular topic and 
appreciate being made aware.  And I thank you for coming before 
our Subcommittee.
	Mr. Miller.  Mr. Bradley.
	Mr. Bradley.  I am just echoing the words of Mr. Moran. Thank 
you for your advocacy and I am pleased to be a cosponsor.
	Mr. Miller.  Ms. Baldwin, I understand that the Subcommittee 
staff is currently working with you looking at the numbers as it 
relates to the expense of the bill.  And I would expect that we 
would have an opportunity to re-enter dialogue after we hear back 
for CBO.  So, thank you for bringing this bill forward this 
afternoon.
	Ms. Baldwin.  Thank you.
	Mr. Miller.  Mr. Langevin, with H.R. 2188.

STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENT-
	ATIVE IN CONGRESS FROM THE STATE OF RHODE ISLAND

	Mr. Langevin.  Thank you, Mr. Chairman and Members of the 
Committee.  And before I begin, I would just like to take a moment 
to add my voice of support to, in particular Mr. Filner's bill.  
Both my grandfather, John Barrett, and his brother, my great-uncle 
after whom I was named, Jim Barrett, served in the Merchant 
Marines during World War II.  They have both since long passed 
away, as well as their spouses.  So my family, of course, there is 
no surviving member that would benefit financially from this in an 
effort for full disclosure.  But it is the right thing to do to 
honor our Merchant Marines and the sacrifice that they gave during 
World War II.
	But, Mr. Chairman and Ranking Member Berkley, who is also a 
sponsor of 2188, and distinguished Members of this Subcommittee, I 
want to thank you for having this important hearing today on all 
of these bills, and especially for the opportunity to discuss H.R. 
2188, a bill that would authorize memorial markers in a national 
cemetery to commemorate service members buried in American Battle 
Monuments Commission cemetery.
	As Members of Congress we all have the great opportunity to 
hear stories of duty and honor from our constituents.  I had such 
a chance right after Memorial Day in 2004, when I received a 
letter from Henry Stad, a resident of Rhode Island and a U.S. 
Airforce veteran of World War II.  Mr. Stad asked that I sponsor a 
bill that would allow family members of servicemembers that were 
killed in action and buried overseas to be able to request a 
burial plaque to be set in a family burial plot in the United 
States.  I was happy to look into this request from a man who gave 
so much for our country.
	Mr. Chairman, as you know, the United States currently has 24 
permanent overseas burial grounds that are the final resting place 
for nearly 125,000 of the brave men and women who died serving our 
country.  These sites are the responsibility of the American 
Battle Monuments Commission and are a wonderful tribute to those 
who sacrificed for our nation.  However, the Department of 
Veterans' Affairs maintains that because these graves can be 
visited, there is no need to provide families at home with a 
memorial marker for their deceased loved ones buried there.
	Now as a result, I introduced a bill that will help families 
memorialize those who died in service to our country and are 
buried in cemeteries overseas.  According to the Department of 
Veterans' Affairs, those servicemembers whose remains are 
classified as "unavailable for burial" are eligible for government 
provided memorial markers or headstones.  While this 
classification includes those whose remains have not been 
recovered, or who are buried at sea, there is one glaring 
exception to this definition.  Those who died fighting for freedom 
abroad and were laid to rest there.
	Now families are proud of these courageous men and women who 
answered the call to protect our country and then paid the 
ultimate sacrifice.  Unfortunately for many families, a trip 
abroad to visit their loved ones final resting place is not 
possible due to finances or old age.  A memorial marker is the way 
to keep the memory of their loved ones alive, while also teaching 
younger generations about sacrifice.  We should not deny the 
families of these courageous men and women the ability to obtain 
memorial markers when we already do it for so many others.
	To correct this my legislation will add overseas burials to 
the VA's "unavailable for burial" classification and finally let 
these men and women be memorialized by their families here at 
home.
	Mr. Chairman, in closing, I urge you to help memorialize 
those that accepted the call to protect our country.  Thank you, 
again, for this opportunity and I look forward to working with you 
in serving our veterans.  Thank you.
	[The statement of James R. Langevin appears on p. 68]

	Mr. Miller. Thank you very much.  Mr. Udall, questions?  Mr. 
Moran?  Mr. Bradley?  Thank you for your testimony and bringing 
this forward.  And the last panelist is up here with us on the 
Subcommittee.  Mr. Udall, you are recognized to talk about your 
bill, H.R. 601.

STATEMENT OF HON. TOM UDALL, A REPRESENTATIVE IN
	CONGRESS FROM THE STATE OF NEW MEXICO

	Mr. Udall.  Thank you, Mr. Chairman.  And I very much 
appreciate the testimony of my colleagues, Tammy Baldwin, Bob 
Filner, and James Langevin.
	Mr. Chairman, I would like to thank you for considering my 
legislation today, H.R. 601, the Native American Veterans Cemetery 
Act of 2005, and would like to personally thank Chairman Miller 
for inviting me to testify today.
	Providing the men and women of the U.S. Armed Services with a 
final resting place is one of the missions of the Department of 
Veterans' Affairs through the National Cemetery Administration.  
NCA maintains 122 national cemeteries, including two in my home 
state of New Mexico, one in Santa Fe and one in Fort Bayard.  NCA 
also provides grants to states for the construction of state 
cemeteries with ongoing responsibility for the maintenance of the 
cemetery.
	However, one group lacks the opportunity to be buried close 
to home in a veterans cemetery.  Historically, Native Americans 
have the highest record of service in the armed forces per capita 
of any ethnic group.  And New Mexico ranks fifth in the nation in 
Native American veterans with a population of 9,800 veterans.  Yet 
under existing law, tribal governments are ineligible to apply for 
a state cemetery grant.  Thus, honorable soldiers are unable to 
receive the dignity of burial in a veterans cemetery located on 
their home land.
	My legislation would change that.  Under H.R. 601, tribal 
governments would be put on the same footing as states, consistent 
with tribal sovereignty by allowing them to apply for grants to 
establish, expand, or improve tribal veterans cemeteries.
	H.R. 601 enjoys broad support.  A bipartisan group of 46 
members of the House are cosponsors, six of whom are members of 
the House Veterans' Affairs Committee.  I would specifically like 
to thank the Ranking Member of this Subcommittee, Congresswoman 
Shelley Berkley for her support, as well as Congressman Tom Cole 
of Oklahoma for his strong and early support.  State legislatures 
in both Arizona and New Mexico have passed resolutions in favor of 
allowing tribal governments to apply for national veterans 
cemeteries.  The Navajo Nation, the largest federally recognized 
tribe is a strong supporter, as is the National American Indian 
Veterans Organization.
	Furthermore, both former Department of Veterans' Affairs 
Secretary Anthony Principi and current Secretary Jim Nicholson 
have expressed strong support stating that H.R. 601 would create 
another means of accommodating the burial needs of Native American 
veterans who wish to be buried in tribal lands.  I have included 
with my testimony several letters of support and would like to ask 
unanimous consent that these letters be made part of the record.
	Mr. Miller.  Without objection.  So ordered.
	[The attachment appears on p. 72]

	Mr. Udall.  Mr. Chairman and Members of this Subcommittee, 
this bill would give no special treatment and make no special 
arrangements for tribal governments.  It would allow tribal 
governments the same opportunities as state governments, and by 
extension would grant Native American veterans the opportunity to 
be laid to rest close to home.  This bipartisan legislation is 
strongly and widely supported, and I hope for your sincere 
consideration.  At this time I would be happy to take any 
questions also.
	[The statement of Tom Udall appears on p. 69]

	Mr. Miller.  Questions.  Mr. Moran.
	Mr. Moran.  No, sir.
	Mr. Miller.  Mr. Bradley.
	Mr. Bradley.  Thank you very much, Mr. Udall.
	Mr. Udall.  Thank you.
	Mr. Miller:  I understand how busy everybody's schedule is, 
and I appreciate the panelists being here to testify on their 
legislation that impacts the lives of our servicemembers, 
veterans, and their survivors.  On behalf of the Subcommittee let 
me do say thank you again.  We look forward to working with all of 
you.  Thank you.  And with that we will move to the second panel.  
If I could ask the second panel, which is VA and Arlington 
Cemetery, I believe, to come forward please.  Mr. Bill Tuerk is 
the Under Secretary for Memorial Affairs at the National Cemetery 
Administration.  Good to see you, sir.  He is accompanied by Jack 
McCoy, the Associate Deputy Under Secretary for Policy and Program 
Management at the Veterans Benefits Administration.  And rounding 
out this panel is Mr. Jack Metzler, the Superintendent of 
Arlington National Cemetery.
	And I would say to any member of this Subcommittee if you 
have not availed yourself to a tour with Mr. Metzler at Arlington 
Cemetery you should do so.  I do not know of any person that is 
more knowledgeable about a cemetery and a national shrine as he 
is.  I want to personally thank you for giving me the opportunity 
to learn so much more about Arlington National Cemetery.  I 
understand your testimony last week was quite helpful to the 
Subcommittee.  I apologize, I was not here, as I was out of 
Washington back in the district attending a funeral at Barrancas 
National Cemetery in my congressional district.  So with that, Mr. 
Tuerk, you may begin.



STATEMENT OF WILLIAM F. TUERK, UNDER SECRETARY 
	FOR MEMORIAL AFFAIRS, NATIONAL CEMETERY ADMINI-
	STRATION; ACCOMPANIED BY JACK McCOY, ASSOCIATE
	DEPUTY UNDER SECRETARY FOR POLICY AND PROGRAM
	MANAGEMENT, VETERANS BENEFITS ADMINISTRATION

	Mr. Tuerk.  Thank you, Mr. Chairman.  Mr. Chairman, Mr. 
Bradley, Mr. Udall, friends on the staff.  I thank you for the 
opportunity to testify today on a number of legislative items of 
great interest to veterans.
	As you noted, Mr. Chairman, I am accompanied by Mr. Jack 
McCoy, Associate Deputy Under Secretary for Policy and Program 
Management, Veterans Benefits Administration.  I am also honored 
to share the panel with my friend of many years, Mr. Jack Metzler, 
Superintendent of Arlington National Cemetery.  
	With the Committee's permission, Mr. Chairman, I will offer a 
summary statement this afternoon and request that my written 
testimony be submitted for the record.
	Mr. Miller.  Without objection.
	Mr. Tuerk.  If I may, Mr. Chairman, I will proceed by 
discussing each of the bills listed on the hearing agenda in the 
order in which they appear.  The first bill, H.R. 23, the proposed 
Belated Thank You to Merchant Mariners of World War II Act of 
2005, would require the Department of Veterans Affairs to pay 
certain Merchant Mariners who served during World War II the sum 
of $1,000 per month.  It would, in addition, require VA to make 
the same payment to the surviving spouses of eligible Merchant 
Mariners after these Mariners' deaths.
	VA opposes enactment of this bill for several reasons.  
First, the Secretary of Defense has certified that Merchant 
Mariner ocean-going service during World War II was active 
military service for VA benefit purposes.  Thus, World War II 
Merchant Mariners are already eligible for the range of benefits 
offered to all World War II veterans.  This bill would provide 
concurrent eligibility for an additional VA benefit, a cash 
payment for Merchant Mariners, not made available to other 
veterans.
	It would also provide for a payment to Merchant Mariners, 
even those who have not incurred a contemporary service-connected 
disability, that is greater than the payment received by World War 
II veterans who suffered a disability, and have recieved a 
service-connected disability rating of 60 percent.
	In our view, such preferential treatment to be afforded to 
Merchant Mariners would not be fair.  Fairness would dictate 
equity, something that World War II Merchant Mariners already have 
achieved.  Further, VA believes the Social Security Administration 
should be consulted on its views with respect to this legislation 
and the interer 
agency coordination that it would require.
	H.R. 601, the proposed Native American Veterans Cemetery Act 
of 2005, would authorize the Secretary of Veterans Affairs to make 
grants to Native American tribal organizations to assist them in 
establishing, expanding, or improving veterans cemeteries on trust 
lands in the same manner as such grants are made to States for 
these purposes. H.R. 601 would thus create another means of 
accommodating the burial needs of Native American veterans who 
wish to be buried on tribal lands.  We strongly support enactment 
of this bill, as we have in years past.
	H.R. 2188 would make servicemembers and others interred at 
American Battle Monuments Commission cemeteries eligible for 
placement of an additional memorial marker in a stateside 
cemetery.
	The Department of Veterans Affairs does not support enactment 
of this bill.  The fallen warriors who are interred in ABMC 
cemeteries have been provided an honorable place of repose by the 
United States government.  To provide a second marker for those 
whose remains are already interred in a federal cemetery would 
significantly alter the purpose of the memorial marker benefit.  
By statute, memorial markers have been issued solely to honor 
those who cannot be interred either here or abroad, because their 
remains are not available for burial due to non-recovery from the 
battlefield, burial at sea, donation to science, or for other 
reasons.
	In short, we believe the honor of an "In Memory Of" headstone 
should be reserved for those who are not, and who cannot be, 
memorialized at a conventional gravesite.  Those buried in ABMC 
facilities are already so memorialized.
	H.R. 2963, the proposed Dr. James Allen Disabled Veterans 
Equity Act, would improve compensation benefits for veterans in 
certain cases of vision impairment involving both eyes.  This 
legislation, which is consistent with prior Congressional action 
pertaining to special consideration for hearing loss, would treat 
vision impairment in both eyes similarly to hearing loss in both 
ears.  VA supports enactment of H.R. 2963, subject to offsetting 
savings.
	H.R. 4843, the proposed Veterans Compensation Cost of Living 
Adjustment Act of 2006, would authorize a COLA adjustment 
effective with payments received in January 2007 to the rates of 
disability compensation, dependency and indemnity compensation, 
and other VBA administered cash benefit payments.  We believe a 
COLA is necessary and appropriate to protect the benefits of 
affected veterans and their survivors from the eroding effects of 
inflation.  We therefore support enactment of this legislation.
	H.R. 5037, the proposed Respect for America's Fallen Heroes 
Act, would prohibit non-approved demonstrations at cemeteries 
under the control of VA's National Cemetery Administration and at 
Arlington National Cemetery.  We fully support the policy 
objectives of this bill although, as I explain in my prepared 
statement, we are concerned that the text of this bill, as 
currently drafted, might inadvertently, we think, narrow the ban 
already in effect on demonstrations in national cemeteries under 
VA regulations.  I look forward to working with Congress to avoid 
this result, particularly if it is an unintended result, and to 
ensure that the dignity and sanctity of our national cemeteries 
are fully maintained.
	The final bill on the agenda, H.R. 5038, the proposed 
Veterans Memorial Marker Act of 2006, would change the 
applicability date of VA's current authority to provide a 
government headstone or marker for the private grave of a veteran, 
regardless of whether the grave has already been marked at private 
expense.
	Under current law this authority extends only to veterans 
whose deaths occurred on or after September 11, 2001.  A provision 
of the bill would authorize VA to furnish such markers for the 
graves of veterans who died on or after November 1, 1990.  We 
support enactment of this provision of the bill.
	In addition, this bill would extend VA's authority to furnish 
the second marker benefit through December 31, 2007.  We support 
extension of this authority.  Indeed, we would recommend that the 
legal authority for this benefit be made permanent.
	Additionally with respect to H.R. 5038, we support a series 
of relatively minor statutory revisions, as outlined in my written 
statement, to accommodate the practical needs of veterans' 
families in obtaining government-furnished headstones and markers.  
We request that the Committee consider adding these provisions to 
H.R. 5038 prior to, or 
at, its markup of this legislation.  NCA's technical experts will 
be made available to the Committee's staff to explain in depth our 
proposed additions to this bill.
	Mr. Chairman, that concludes my statement.  I appreciate the 
opportunity to have appeared before you to explain the 
administration's views on these important legislative matters.  
And I would be pleased to entertain any questions you or the other 
members of the Subcommittee may have.  Thank you.
	[The statement of William F. Tuerk appears on p. 77]

	Mr. Miller.  Thank you, sir.  The Chair would now recognize 
Mr. Metzler.

STATEMENT OF JOHN C. METZLER, JR., SUPERINTENDENT,
	ARLINGTON NATIONAL CEMETERY

	Mr. Metzler.  Good afternoon, Mr. Chairman, Members of the 
Subcommittee.  Thank you for the opportunity to testify before the 
Subcommittee to present the Department of the Army's views on H.R. 
5037, that would impact Arlington National Cemetery if enacted 
into law.  I am testifying today on behalf of the Secretary of the 
Army, who is responsible for the operation and maintenance of 
Arlington National Cemetery.
	Arlington is our nation's premier military cemetery.  It is 
an honor for me to represent this national cemetery.  And on 
behalf of the Department of the Army I want to express our 
appreciation for the support that Congress has provided over the 
years.
	In fiscal year 2005 there were over 6,500 funerals at 
Arlington National Cemetery.  In addition, we conducted 3,200 
ceremonies.  H.R. 5037 would prohibit certain demonstrations at 
national cemeteries under the control of the National Cemetery 
Administration and Arlington National Cemetery, to include 
picketing, oration before assembled crowds, displaying of 
placards, or distributing of certain forms or written materials on 
cemetery property.  This bill would also prohibit demonstrations 
within 500 feet of a national cemetery one hour before and through 
one hour after a memorial, a funeral, or a ceremony.
	The Army fully supports this concept to this proposed 
legislation as it pertains to Arlington Cemetery, because it would 
help protect the sanctity of the cemetery and the dignity of the 
funerals and ceremonies that are held upon this hallowed grounds.
	Demonstrations at Arlington National Cemetery have been part 
of the history of the cemetery since at least the Vietnam War.  
Because of our urban location within the heart of our nation's 
capital, Arlington frequently becomes a rallying point for groups 
wishing to express their opposing views and opinions, particularly 
regarding our nation's military policies.
	For this reason, certain conduct with the cemetery grounds is 
currently prohibited under Title 32 of the Federal Code of 
Regulations.  This prohibition also occurs for memorial services 
and other ceremonies when our nation comes together at Arlington 
to remember the deeds and sacrifices of the brave men and women 
who served honorably in our armed forces.
	This newly proposed law would help strengthen the sanctity 
and preserve the dignity of Arlington Cemetery.  Mr. Chairman, 
this concludes my statement.  I would be more than pleased to 
respond to any of your questions.
	[The statement of John C. Metzler, Jr. appears on p. 96]

	Mr. Bradley.  [Presiding] Thank you both, gentlemen.  Let me 
start out by just saying that Mr. Tuerk, because VA's testimony 
was not received until the end of the day yesterday, Chairman 
Miller and other members of the Subcommittee will be submitting 
questions for the record.  So let me just ask a couple of 
questions.
	You expressed some concerns in your testimony about H.R. 
5037.  That it would be less restrictive than current VA 
regulations that limit demonstrations on VA property.  While VA 
regulations regulate within the grounds of a VA national cemetery, 
what affect do they have on demonstrations near, but not on, VA 
property?
	Mr. Tuerk.  Our regulations, Mr. Chairman, only extend to the 
limits of our national cemetery property.  They do not extend 
beyond those limits 500 yards or otherwise.  When I say that our 
regulations are broader, I am not talking in terms of the scope of 
the geographic coverage.  I am talking about the scope of 
activities that we have claimed the authority to regulate and 
which the courts have affirmed that we in fact do have the 
authority to regulate.
	Mr. Bradley.  Second question.  When you exercise this 
authority to maintain decorum and not have demonstrations on the 
property, how do you go about informing people that may or may not 
know that these restrictions are in place?
	Mr. Tuerk.  Mr. Chairman, to be honest with you, I do not 
know.  I can certainly follow up on how we proactively get this 
information out.  Otherwise, I am prepared to say now that if 
someone approaches us, and of course no one is going to come onto 
our property without approaching us for some sort of permission, 
at that point we would advise them of first, our proper role in 
regulating conduct within the cemetery to maintain dignity and 
decorum; and secondly review with them the sort of activities that 
they have in mind; and lastly, inform them at that point of our 
views with respect to those activities.
	Mr. Bradley.  So if someone were to gain access, for 
instance, to Arlington and did not appear that this was part of a 
protest and then unfurled banners and, you know, started a protest 
and they were unaware of the restrictions, what would -- how would 
you deal with that kind of a situation?
	Mr. Tuerk.  I will only speak for national cemeteries.
	Mr. Bradley.  Yes.
	Mr. Tuerk.  I won't speak for Arlington.  But, if protestors 
were to appear at our cemetery and start a demonstration without 
our permission, we would inform them, irrespective of the subject 
matter of their demonstration, that it is not allowed without 
permission.  Then we would ask them to vacate the premises.  If 
they did not vacate the premises, we would call the proper 
authorities to compel them to vacate the premises.
	Mr. Bradley.  So if you gave them the opportunity to vacate 
the premises, then no further action would be taken?
	Mr. Tuerk.  I think that is the way we operate now.  Yes, 
sir.
	Mr. Bradley.  All right.  Good.  Thank you.
	Mr. Tuerk.  I think that is a fair assessment.
	Mr. Bradley.  Generally that would be how you would handle 
it?
	Mr. Tuerk.  As a general proposition, yes.
	Mr. Bradley.  Let me move to you, Mr. Metzler, and ask you 
the same questions about informing the public and if somebody 
legitimately did not know that there were restrictions during a 
funeral from demonstrating, how would you handle that?
	Mr. Metzler.  We would inform these individuals, either 
myself or one of my representatives would go up to them and ask 
them politely, but firmly, that they needed to stop during this 
funeral service.  And at the same time we would call the United 
States Park Police, who is our law enforcement authority for 
Arlington Cemetery.  And if the individuals left quietly that 
would end the matter.  If not, we would invoke the Park Police to 
ensure that they left quietly.
	Mr. Bradley.  So in other words, as you said, if people left 
and came back and demonstrated when it was appropriate to do so, 
then that would be the end of the issue?
	Mr. Metzler.  Well, under the current Federal Code of 
Regulations, we do not allow picketing in the cemetery, protester 
demonstrations at all.
	Mr. Bradley.  At all.  Okay.
	Mr. Metzler.  At all, anytime.  I think the difference in 
this new proposed legislation, which is strengthening, at least 
for Arlington Cemetery, is that there is a restriction now of 500 
feet to the boundary of the cemetery, which is a tremendous 
benefit to us since we do not actually own the property outside 
the -- 
	Mr. Bradley.  Right.  I mean, there is a bike path, there is 
a road, there is the bridge.  I mean all of those I actually like 
to, myself, run out there once in a while.  It is a beautiful run 
down the Mall and up to the Iwo Jima Memorial and along that bike 
path.  So, under Mr. Rogers' proposed legislation, then you would, 
in fact, have authority to ensure that within that scope of area 
around the cemetery during those times that you have the authority 
to regulate.
	Mr. Metzler.  That is right.  It would push them further away 
from the entrance of the cemetery.  Oftentimes they use the area 
right in front of the cemetery, again which is not Arlington's 
property, to start a demonstration to march into Washington.  
This, again, would be ended under this new proposed legislation.
	Mr. Bradley.  Thank you.  I am sure that the staff and 
members of the Subcommittee, and the sponsors of the legislation, 
especially H.R. 5037, look forward to working with you to make 
sure that we technically get the language right to make sure that 
there are no unintended consequences.  And that the genuine 
thoughts of Mr. Rogers and the other sponsors that testified here 
today are what gets enacted into law.  We look forward to working 
with you. Mr. Udall?
	Mr. Udall.  Thank you, Mr. Chairman.  These questions are for 
Mr. Tuerk and Mr. McCoy, if he is able to answer them.  Your 
testimony objects to H.R. 23 because of the size of the benefit.  
Would VA support a lesser monetary benefit for the Merchant 
Mariners, such as the $200 per month provided to pensioners of the 
earlier wars who did not receive educational and housing benefits?
	Mr. Tuerk.  I think, Mr. Udall, the basis for our objection 
to this legislation is not necessarily the quantum of the payment 
that would be made, but the fact that the payment would be made to 
this class of veterans and not be made available to other classes 
of veterans, and to these survivors and not to other survivors.  I 
think it is that principle, more than the $1,000 versus the $200 
amount that you suggest here, that is the basis of our objection.  
Beyond that, I will defer to Mr. McCoy, who has more expertise on 
this matter, since it is a VBA matter.
	Mr. McCoy.  I would agree with that statement and just add 
the fact that there are Merchant Mariners now that receive 
benefits who would be getting an additional payment on top of 
whatever benefit they might be receiving now.
	Mr. Udall.  Could you please explain the VA's rationale for 
considering blindness for paired organs at a visual acuity of 5 to 
200, rather than the level of 20 to 200, used by the Social 
Security Administration and other government agencies to determine 
legal blindness?
	Mr. McCoy.  No, sir.  I can only explain it at this moment to 
the extent that is what our rating schedule calls for.  I 
apologize, but I cannot answer your question in more detail.  I 
would be glad to get that to you.
	[As indicated above, Mr. McCoy submitted the following 
detailed response to Mr. Udall's question for the record:  "The 
current Rating Schedule and its predecessors used by the 
Department of Veterans Affairs to evaluate visual impairment and 
to define blindness as visual acuity of 5/200 have used the same 
standard since 1924.  A review of the history of the various 
changes to the rating schedule with respect to visual acuity 
reveals that this standard has not been challenged by anyone or 
any entity since originally set out by VA.  VA proposed revisions 
to the schedule for eye disabilities and solicited comments in 
1999.  While there were numerous comments on other aspects of the 
schedule, no individual or organization raised a concern about the 
standard for blindness."]

	Mr. Udall.  That would be fine.  Thank you.  If you would 
submit that, that would be great.  The Administration's budget did 
not include a COLA applicable to the additional $250 per month 
paid to surviving DIC, Dependency Indemnity Compensation 
beneficiaries with children for the first two years of 
eligibility.  Does VA believe that it is appropriate for the value 
of this benefit to erode with the passage of time?
	Mr. Tuerk.  I am not prepared to speak for the administration 
on that question.  Since we did not propose a COLA to that 
benefit, I think I am not free to state specifically that we 
support it or that we should have proposed it.  I think, however, 
that the Administration would not take the point of view that any 
benefit currently recieved by veterans should be eroded over time.
	[Mr. Tuerk provided this additional response following the 
hearing to Mr. Udall's question:  "Question 2:  Why does the COLA 
bill not include a request to increase the $250 allowance for 
dependent children?  Aren't you concerned that the allowance will 
be "devalued by inflation?"
	Response:  We agree that the additional $250 benefit due 
surviving spouses with minor children during the first two years 
of entitlement or until the last minor child reaches age 18, 
whichever comes first, is an important benefit intended to address 
transition issues for survivors.  As survivors may be entitled to 
additional benefits for dependents, the transitional benefit is 
similar to other special or one-time payments such as automobile 
allowances and burial benefits.  Traditionally, Congress has 
reserved to itself the decision to raise these benefits."] 

	Mr. Udall.  And would you -- could you take a position then 
if you do not think there should be erosion, then we should 
somehow deal with it, shouldn't we?
	Mr. Tuerk.  Well, I cannot take a position here and now.  But 
I certainly could follow up with a position on behalf of not only 
myself, but more significantly, on behalf of the administration.
	Mr. Udall.  That would be just fine.  Thank you.  Mr. 
Metzler, does Arlington have space which would be unsuitable for 
burial gravesites, but might be suitable for placement of a marker 
of a veteran buried in an ABMC cemetery?
	Mr. Metzler.  We have limited space at this time for memorial 
sections, as we refer to them.  We are down to under about 300 
spaces left in the cemetery.  This proposed legislation, as I read 
it, did not seem to affect Arlington Cemetery.  It seemed to 
affect the Veterans' Administration national cemeteries.  If it 
does eventually affect Arlington, it would concern me because the 
numbers are so great.
	Typically in a year's time we only receive about 20 to 30 
requests for memorial markers.  And they are mainly World War II 
veterans whose remains have not been recovered and the families 
have just now found out about the benefit of putting a memorial 
marker up in lieu of not having their loved one recognized at all.
	If this legislation gets enacted then there is a potential of 
125,000 new requests for not only Arlington, but for national 
cemeteries across the spectrum.  This could have an impact on our 
availability of space for the other veterans in the future.
	Mr. Udall.  Mr. Tuerk, could you answer that for the VA 
national cemeteries, that same question?
	Mr. Tuerk.  I think we are not in the position that Mr. 
Metzler is with respect to Arlington.  We have 122 cemeteries, 
some of which have no space available, some of which have several 
hundreds of acres available yet that have not been developed.  So 
our position, unlike Arlington's, is -- or at least less premised 
on the unavailability of space to provide this benefit then the 
rationale that we expressed in both our prepared statement and my 
oral statement.
	Mr. Udall.  In your testimony you indicate that the number of 
requests for a headstone or marker for an already marked grave are 
nominal.  Veterans buried in ABMC cemeteries were generally single 
and have been dead for over 50 years.  In almost all cases, the 
parents of the deceased veteran would also be deceased.  On what 
basis do you expect the request for a marker or a headstone for a 
veteran buried in a ABMC cemetery would be more than nominal?
	Mr. Tuerk.  Well, I think there are next of kin, perhaps, of 
many of those interred or other family members.  I do not think 
that we necessarily assume that all would request this.  I think 
our statement is premised on the outlying potential cost that this 
would generate.
	Mr. Udall.  Thank you, all three of you.  Thank you very 
much.  And I do not have any further questions, Mr. Chairman.
	Mr. Tuerk.  Thank you.
	Mr. Udall.  Thank you.
	Mr. Bradley.  I would like to close this panel and thank you 
very much for your testimony.  And as I said, Mr. Miller and other 
members of the Subcommittee may well have questions for the record 
and we will get them to you.  And thank you again.
	Mr. Tuerk.  I understand, Mr. Chairman.  I thank you.
	Mr. Bradley.  If you will be seated.  Is Mr. Filner a 
Merchant Mariner?
	Mr. Filner.  No, sir.
	Mr. Bradley. Good afternoon, gentlemen.  Congressman Filner, 
I assume you are here for purposes of an introduction?
	Mr. Filner.  If I may?
	Mr. Bradley.  Absolutely.
	Mr. Filner.  All of us have had the experience, especially 
those of us who have the privilege of serving on the Veterans' 
Committee, of meeting members of the greatest generation.  The 
stories they tell, the courage they exhibited, the patriotism they 
have, it is an inspiration to all of us.  One of the people I have 
had the privilege of meeting is Ian Allison, who is going to be 
testifying on H.R. 23.  He is the Chairman of the Just 
Compensation Committee, which has been working on behalf of the 
Merchant Mariners.  He has a life that is filled with adventure, 
and I just love to be with him.  So I wanted to be here next to 
him today and share in his attempt to convince everybody of the 
virtue of H.R. 23.
	Mr. Bradley.  Thank you very much, Mr. Filner.  Let me just 
briefly introduce everybody.  Mr. Ian Allison is the Co-Chair of 
the Just Compensation Committee of the U.S. Merchant Marine Combat 
Veteran.  Mr. David Greineder is the Deputy Legislative Director 
at AMVETS.  Mr. Thomas Zampieri is the Director of Government 
Relations at the Blinded Veterans Association.  Mr. Quentin 
Kinderman is the Deputy Director of the Veterans of Foreign Wars 
National Legislative Service.  I would like to just remind all of 
you if you could do your utmost to keep your remarks to the five 
minute limit.  Your full statement, obviously, will be part of the 
permanent record and will be printed as a result of the hearing.  
Mr. Allison, please.

STATEMENT OF IAN ALLISON, CO-Chairman, JUST COMPEN-
	SATION COMMITTEE OF THE U.S. MERCHANT MARINE
	COMBAT VETERAN

	Mr. Allison.  Chairman Bradley, and other Members of this 
Subcommittee, esteemed Members I should say, my name is Ian 
Allison.  I strongly encourage the passage of H.R. 23.  I 
represent 6,300 Merchant Marine veterans of World War II, who are 
seeking the recognition and their benefits under the 1944 GI Bill 
of Rights.  This group is a non-profit, unincorporated committee 
of veterans registered with the Internal Revenue Service as a Just 
Compensation Committee.
	The committee has asked me to appear today before this 
Subcommittee to represent their interests.  The statements 
made here today have been supplied to me by various members of our 
committee for your enlightenment.  I am requesting that the 
statements of Stanley Wilner, (POW), Bruce Felknor, Perry Adams, 
and Burt Young be introduced into the record.  These written 
statements have been delivered to the Subcommittee and I ask you 
again to be sure they are introduced into the record.
	[The attachments appear following Mr. Allison's written 
statement]

	Mr. Allison.  Passage of H.R. 23 would be the final chapter 
of what has been a ragged response by the government to men who 
placed their lives in danger as they served their country.  There 
might be some members in Congress who are not historically 
informed in what happened to some 230,000 seamen, both black and 
white, from the end of World War II to the present.  And perhaps I 
can help present this issue.  The Merchant Mariners of World War 
II were the only service that was not segregated.  We had black 
and white both serving on the same ship.
	It has been said that when one dies, so dies one's influence 
and power.  And so it was that when President Franklin Roosevelt 
died, his directions to his advisors that the Merchant Seamen of 
World War II should be accorded benefits like veterans of other 
services also died.  The influence of dissenting Members and some 
of the animosities left over after the war from competing services 
and civilian service groups prevented benefits being given to the 
Merchant Seamen.  Many service people who might have dug ditches 
in Louisiana and never stepped outside of the United States got 
the full GI Bill, GI loans, and much more.  But those who sailed 
the Murmansk Run, were sunk in burning oil, or frigid waters of 
the North Atlantic got nothing.  In fact, their pay, which has 
been reviewed countless times, stopped the moment they went into 
the water.
	It was not until Senator Barry Goldwater in 1977 made the 
effort to recognize the women pilots with veteran recognition did 
the same bill, Public Law 95-202 permit Merchant Seamen to apply 
for veteran recognition.  Thus began the constant misinformation 
and countless examples of hatred for the Merchant Seamen's efforts 
to secure veterans recognition.  There was a growing lack of 
concern for Congress to do what was right, recognize the Merchant 
Marine veterans of World War II.
	The first stage of recognition efforts by the seamen came 
after a bitter court battle between the Maritime Trades and the 
Pentagon.  A federal court judge, in 1986, ruled against the 
Pentagon, stating that the Merchant Seamen have been discriminated 
against.  He wrote in his finding that the Navy and certain 
veterans groups bitterly opposed any recognition.  While the court 
recognized the majority of Merchant Seamen as qualified, these men 
only received a tombstone, a flag, and a discharge and limited 
medical attention.  Those who went to sea after August 15, 1945 to 
December 31, 1946, the official end of the war, received nothing.  
They became the denied seamen.  The Defense Department went to war 
against this group.
	This started phase two of official Congressional denial.  It 
took ten years of effort on the part of the Merchant Mariners 
Fairness Committee, through five sessions of Congress, until 
finally H.R. 1126 with Representative Lane Evans as sponsor and 
337 of his fellow members as cosponsors, to recognize the denied 
seamen with veterans discharge.  A discharge that they had to pay 
$30 to buy and to pay for their own medals, and received only a 
tombstone, a flag and a piece of paper.  Nothing else as a 
benefit.  We are most fortunate many of the cosponsors of H.R. 
1126 are still members of the House of Representatives, members of 
the Veterans' Committee, and members of this Subcommittee.
	They do not have the knowledge of how slanderous 
misinformation was continually sent to House members by various 
military liaison stating that Merchant Seamen were unqualified to 
be veterans as they went on strike during the war.  The story by 
Walter Winchell about Merchant Seamen refusing to unload munitions 
and cargo at Guadalcanal on a Sunday was repudiated and the 
reporter was in disgrace.  No ship was ever delayed in the war 
because of labor problems.  It is so hard to counter lies, 
especially when many Members had no direct knowledge of the 
history of the war.  Today we call it "bad-mouthing" your 
opposition.
	Of the 230,000 men in the Merchant Marine in 1945, probably 
less than 10,000 are still alive.  The youngest who joined the 
service in 1945 are now 78 to 79 years old, many in poor health.  
The majority of the men in their mid-80's, as myself, I am 86, 
dedicating 100 percent of my time to see the record set straight 
by passage of H.R. 23.  There is still a time for a grateful 
nation to say thank you to a thinning rank of men.
	We are now at stage three.  Sixty years is a long time for 
any service person to wait for proper recognition.  Sixty years is 
a long time to spend trying to correct history written to 
denigrate what we thought was service to our country.  They say 
America is strong because of the will of the people and their 
concern for each other.  Passage of H.R. 23 will go a long way in 
proving this to be so.  Please recommend that H.R. 23 be passed 
and let's clean up the record.  These blemishes should not be part 
of our country's record.  Thank you very much.
	[The statement of Ian Allison appears on p. 99]

	Mr. Bradley.  Thank you very much, sir.  Next, Mr. Greineder.

STATEMENT OF DAVID GREINEDER, DEPUTY LEGISLATIVE
	DIRECTOR, AMVETS

	Mr. Greineder.  Thank you.  Mr. Chairman, Members of the 
Subcommittee, AMVETS is pleased to present our views on the 
legislation before the Subcommittee.  And we are honored to join 
our fellow veterans service organizations and veterans on the 
panel.
	Regarding H.R. 23, this bill would provide $1,000 monthly 
payment to the Merchant Marines of World War II.  If implemented, 
this legislation would cost $120 million for the first year, and 
$20 million in subsequent years.  AMVETS has no official position 
on the bill at this time, but I will say that we believe this bill 
will be extremely costly to VA.  AMVETS certainly recognizes the 
sacrifices of the Merchant Marines during World War II and we are 
proud of their accomplishments, but we would ask that you 
seriously take a look at how this bill would affect VA.
	H.R. 601 would allow Native American Tribes to apply for 
state cemetery grants from VA.  AMVETS believes cemeteries on 
tribal lands would be an appropriate memorial and a reminder of 
the sacrifices made by Native American men and women.
	H.R. 2188 would allow memorial markers to be placed in a 
national cemetery to commemorate service members whose remains are 
interred in American Battle Monuments Cemetery.  AMVETS share the 
profound pride, admiration, and gratefulness associated with the 
spirit of this legislation.  We support the bill.  But we do ask 
that appropriate steps be taken to ensure that the land used for 
these markers are not better intended for gravesites.
	H.R. 2963 would allow veterans who have a complete loss of 
sight in one eye due to a service connected injury to receive 
increased disability compensation if they lose sight in the other 
eye.  AMVETS recognizes the need and importance of this 
legislation.  We support the bill.
	H.R. 4843 would provide a cost of living adjustment to 
veterans benefits effective December 1, 2006.  AMVETS supports our 
nation's commitment to care for the men and women who have served 
in our military service.  This legislation will increase current 
rates of disability compensation to help meet rising costs.  We 
support the bill.
	H.R. 5038 would allow veterans and their families to apply 
and receive VA's official grave marker for an additional year.  
AMVETS trusts that the Committee can locate the funds necessary to 
incorporate these veterans and family members with an official 
recognition.  AMVETS supports the bill.
	H.R. 5037 would restrict protests in national cemeteries 
during military funeral honors.  AMVETS whole heartedly supports 
this legislation.  We believe it is only appropriate that grieving 
families be allowed to bury their loved ones in peace.  AMVETS is 
troubled, and quite frankly offended, that more than 100 military 
funerals in the last nine months have been interrupted by 
aggressive war protests.  Families burying their husbands, wives, 
sons, or daughters should not be subject to this kind of display.  
AMVETS believes this bill is very timely and hope it receives 
swift passage in the House floor.  And Mr. Chairman, AMVETS wrote 
a letter of endorsement for this bill and I would ask that it be 
included in the record.
	[The attachment appears on p.  ]

	Mr. Greineder.  In closing, Mr. Chairman, AMVETS looks 
forward to working with you and others in Congress to ensure the 
earned benefits of all American veterans are strengthened and 
improved.  This concludes my testimony.  Thank you again for 
allowing us to present our views.
	[The statement of David Greineder appears on p. 104]

	Mr. Bradley.  Dr. Zampieri.	

STATEMENT OF THOMAS ZAMPIERI, DIRECTOR OF GOVERN-
	MENT RELATIONS, BLINDED VETERANS ASSOCIATION

	Mr. Zampieri.  Mr. Chairman and Members of the Committee, on 
behalf of the Blinded Veterans Association we appreciate the 
opportunity to testify here today on H.R. 2963.  I will try to 
make this very brief.  I would like to have the full testimony 
entered into the record.
	There are basically four points here of interest that we 
would like to stress.  One is that BVA would like to remind the 
Committee that this is not a new benefit or a new entitlement.  We 
are just trying to fix the paired organ statute, which 
historically has been on the books since 1962.  That is a real 
long time to have something on the books with an error in it of 
omission.  And what we are concerned about and we want to stress 
is, there has been, according to VHA records 13,109 veterans who 
are service connected as of today for the anatomical loss of an 
eye or blindness due to an injury or illness while they are in the 
service and they searched the records to find out seven different 
ways if there was any other missing people out there.  And this is 
the number that they kept coming up with.
	I go out to Walter Reed frequently to visit with every 
blinded soldier who has come back from Iraq since last June.  And 
I have talked with the Chief of Ophthalmology out there.  And to 
put a new face on this, there are currently 90 soldiers who have 
come back from Iraq who have anatomically lost an eye due to an 
IED explosion or to a gunshot wound.  Two of those soldiers are 
sitting out there today.  And the concerned mother of one of those 
soldiers talked to me yesterday.  And she said, "Her son is doing 
well recovering form other injuries, but he lays awake at night 
worrying what will happen to me if I lose my vision in my other 
eye?"
	Under the current paired organ statute, which does not define 
legal blindness, if an individual who is service connected for 
loss of vision in one eye puts in a claim for service connection 
under the paired organ statute, the VA refers to Section 1160, 
paragraph (l), which defines legal blindness in a measurement form 
of 5/200 in order to meet VA service connection compensation 
standards.
	Currently legal blindness is defined in all 50 states by the 
Social Security Administration, by the World Health Organization, 
is defined as 20/200 or less, or 20 degrees of central field of 
vision or less.  Basically, in researching this and actually 
working with CBO, and I am going to cite their own figures, 
according to the Journal of American Medical Association Archives 
of Ophthalmology, and this is in the CBO report, "The prevalence 
of age-related macular degeneration or other diseases that would 
cause an individual in the U.S. population between the ages of 40 
and 65 to lose their vision is 1.4 percent.  The figure rises to 
just five percent of the population between the ages of 65 to 80 
years of age, and then does not increase until after age 80 to 
about 15 percent of the population."
	Therefore, if this paired organ statute is fixed concerning 
the 13,109 veterans who have lost vision in one eye, you can 
expect probably 600 claims.  I talked to a VBA claims reviewer who 
had 19 years of experience.  And he knows of five cases in the 
last six years.  So we are not opening up the flood gates as long 
as we look at this from the standpoint of those individuals who 
served and lost an eye in service of their country.
	I will leave it on this note that why should a veteran who 
served in the military and lost an eye and almost probably lost 
his life in service to his country have to meet a higher standard 
of blindness than a Social Security recipient.  Mr. Chairman, I 
appreciate the opportunity for Blinded Veterans Association to 
testify today.  And we are completely in support of H.R. 5037.  
Thank you.
	[The statement of Thomas Zampieri appears on p. 112]

	Mr. Bradley.  Thank you very much.  Mr. Kinderman.

STATEMENT OF QUENTIN KINDERMAN, DEPUTY DIRECTOR,
	NATIONAL LEGISLATIVE SERVICE VETERANS OF FOR-
	EIGN WARS

	Mr. Kinderman.  Thank you, Mr. Bradley.  Mr. Chairman, 
Members of the Subcommittee, thank you for inviting us to testify 
here today.  On behalf of the 2.4 million men and women of the 
Veterans of Foreign Wars of the United States, we appreciate the 
opportunity to present our views on legislation included in 
today's hearing.  Our views follow.
	Regarding H.R. 23, Belated Thank You to the Merchant Mariners 
of World War II Act of 2005, the bill seeks to expand the current 
dates of service for World War II Merchant Mariners, who are 
recognized as veterans, and pay a $1,000 monthly benefit to those 
World War II Merchant Mariners, or to their surviving spouses.  
The VFW recognizes the heroic service of Merchant Mariners during 
World War II.  Their sacrifices and heroic efforts were 
instrumental in winning the Second World War.
	We cannot, however, support this legislation to pay a monthly 
benefit which would be in addition to any current veterans 
benefits that would otherwise be payable.  We believe this payment 
would be disproportionate in terms of recognition or benefits to 
what other veterans who have gone in harm's way in service to our 
country currently receive.
	With regard to their service as Merchant Mariners, and the 
proposal that they should be recognized for this Merchant Marine 
service by a special benefit, in addition to being recognized as 
veterans, or for a period extending beyond the currently 
recognized World War II dates, the VFW has not taken a position on 
this matter.
	H.R. 601, titled "Native American Veterans' Cemetery Act of 
2005," would allow tribal organizations to apply for grants to 
establish and maintain veteran cemeteries on tribal lands.  We 
fully support H.R. 601.  We believe this is a logical extension of 
the veteran cemetery grant program.  This legislation will address 
the needs of Native American veterans and their families which are 
not fully met by the national and state veteran cemeteries.
	H.R. 2188, titled "Authorization of Memorial Markers for the 
Remains Interred in American Battle Monuments," proposes allowing 
memorial markers to be placed in national cemeteries for remains 
interred in cemeteries administered by the American Battle 
Monuments Commission.  The bill provides recognition on American 
hallowed ground to the many servicemembers who made the ultimate 
sacrifice to preserve our freedom, and never returned home.  We 
fully support this bill.  And I might say, as probably anyone 
would who has been to Normandy Beach and seen the memorial 
cemeteries there, that these are sacrifices that I think should 
remain in the consciousness of the American people.  And I think 
making these markers convenient here so people can see the 
sacrifices made by the greatest generation is a good thing.
	H.R. 2963 is titled "Dr. James Allen Veterans Equity Act."  
The bill addresses the payment of service connected compensation 
for service connected loss of vision in one eye in the event 
vision is impaired in the other eye.  I doubt I could explain that 
anywhere near as well as Tom just has.  We fully support this 
legislation.
	H.R. 4843, titled "Veterans Compensation Cost of Living 
Adjustments Act of 2006," seeks to adjust compensation rates to 
reflect the rising cost of living.  We appreciate the Committee's 
commitment to maintaining the integrity of the buying power of the 
veterans' compensation program by providing periodic cost of 
living increases, COLAs.  We fully support this goal.
	However, we note that this bill, once again, contains a 
provision for rounding down any fraction of a dollar in the COLA 
calculation.  This works against the spirit of the bill.  Over 
time, and when combined with other adjustments made to meet 
budgetary goals, this has cause erosion of the compensation 
benefit and significant problems for America's veterans. We 
believe it might be the underlying cause of some policy problems 
that have been recognized by the Committee.
	H.R. 5037 is titled "Respect for America's Fallen Heroes 
Act."  This legislation restricts demonstrations at or near 
national cemeteries during funerals and requires approval by 
cemetery authorities for other demonstrations.  The intent is to 
prevent hateful and offensive speech during a very difficult time 
for a veteran or servicemember's family.  We strongly support this 
legislation, including provision that urge state and local 
governments to enact legislation to protect funeral homes, 
religious services, and memorial services from this dangerous and 
damaging use of free speech.
	And finally, H.R. 5038, entitled "Providing Government 
Markers for Dependent Children," we fully support this bill as 
well.  Thank you for the opportunity to present the views of the 
Veterans of Foreign Wars.
	[The statement of Quentin Kinderman appears on p. 118]

	Mr. Bradley.  Thank you all to the panel.  Ms. Berkley, you 
indicated you had a markup that you had to go back to.  So I will 
yield first to you for questions.
	Ms. Berkley.  Thank you, Mr. Chairman.  Actually, I had a 
hearing at the International Relations Committee, which precluded 
me from coming and listening to the entire hearing.  But I am 
awfully glad I came for this panel and was able to get away.
	I want to thank all of you for your eloquent remarks.  I am 
supportive of all of the pieces of legislation that have been 
discussed today and a cosponsor of most of them.  But I 
particularly want to thank all of you for your continued service 
to our country.  Not only did you serve in our nation's wars, but 
you continue to serve the veterans of this country by your work 
through your VSOs and this Congresswoman wants to tell you how 
much I appreciate that.
	 And, Mr. Chairman, if I may, I would like to submit my 
written testimony -- my written opening remarks for the record, 
since I am sure that everybody has sat through a lot of testimony.  
And I do not want to burden anyone further.  So thank you very 
much for the opportunity.
	[The statement of Shelley Berkley appears on p. 43]

	Mr. Bradley.  Mr. Udall.
	Mr. Udall.  I do not have any questions, but I also just want 
to tell the panel I think you have given excellent testimony here 
today and very much appreciate it.  Thank you.
	Mr. Bradley.  In that case, I have a couple of quick 
questions.  Mr. Filner, since you are still here, can I impose on 
you to ask you a question?
	Mr. Filner.  Please.
	Mr. Bradley.  Thank you.  As you know, I am a cosponsor of 
H.R. 23.  Numerous others, and I would say that by virtue of the 
fact that I agree with you on the -- what you are trying to 
accomplish with regard to the Merchant Marine, I believe is 
appropriate.  But you heard the testimony from some of the other 
witnesses today.  Other groups have had -- other civilian groups -
- have had veterans' status conferred on them in accordance with 
Public Law 95-202.  Could you just testify as to why you think it 
is appropriate to single out Merchant Marines for this special 
monthly benefit and respond perhaps to some of the critiques from 
other panelists have talked?
	Mr. Filner. I thank you, Mr. Chairman.  You know, I want to 
defer to Mr. Allison on some of the more emotional kinds of 
arguments.  Let me say, that I heard about the amount of money.  
We are talking about $120 million that goes down to, 
unfortunately, zero in a relatively short time. $120 million is 
0.2 percent of the VA budget, of the existing VA budget, not 2 
percent, 0.2 percent.
	There are myths about who deserves what at what time.  
Remember that this is a benefit for just the remaining years of 
life, not for a lifetime.  As Ian was telling me, the few that do 
get benefits for disability were denied the GI bill benefits.  We 
are just saying, "here is nominal sum, a belated thank you."  We 
can never make up for the loss of benefits.  We cannot afford not 
to do this.  It is a moral imperative of our nation.  Most 
Mariners thought they were fighting for the nation as part of our 
armed forces in World War II.  I would like Ian, if he may, to 
comment on your initial issue about why this group.
	Mr. Allison.  Can you repeat that question?  I am a little 
hard of hearing.
	Mr. Bradley.  Well, thank you, sir.  I indicated to 
Congressman Filner that while I agree with him about the 
appropriateness of this bill and singling out members of the 
Merchant Marine for this special benefit, there are those who do 
not agree with that policy change.  And so -- and the gentleman, 
Mr. Kinderman from the VFW testified in essence to that before.  
So I was in essence trying to give yourself and Congressman Filner 
a chance to respond to that.  Why you think it is appropriate for 
singling out members of the Merchant Marine for this stipend at 
this point in time?
	Mr. Allison.  I appreciate that question.  And I like that 
expression "singling out".  I think that was the problem.  Back in 
1944 we were singled out and were dropped from the benefits that 
everybody else got.  I do not -- 14 million veterans were allowed 
the GI Bill of Rights in 1944.  And we were singled out.  We did 
not get those benefits.  And we did not -- there are a dozen of 
things in the testimony that were given by my fellow veterans of 
what they -- experiences they had trying to get into college, 
trying to get jobs, trying to make a living after the war when 
they weren't veterans.  And it was quite flagrant to these people.
	It is dollars and cents.  We were denied the college 
education.  I only went to the 12th grade in school.  I hustled 
and I did pretty good after.  But that right of a college 
education was worth a lot of money.  And the DOT and some of the 
Department of Labor said it was worth anywhere from $150,000 to 
$300,000, in 1945 dollars or '44 dollars.  In today it would be a 
million dollars that we were denied.  And I think most people who 
are denied a million dollars would like to try to get some of it 
back, especially when the get 80/85 years old.
	Mr. Bradley.  Well, just for the record, I want to make sure 
you know I agree with you and I was just giving you a chance to 
respond to that.
	Mr. Allison.  Thank you very much, sir.
	Mr. Bradley.  Mr. Kinderman, do you -- I am going to give you 
a chance to respond also.
	Mr. Kinderman.  Thank you, Mr. Bradley.  It is very difficult 
to sit here and oppose a popular bill, especially when in fact I 
am a Merchant Mariner.  I hold a Merchant Mariner's license, but 
obviously not World War II.
	I think Mr. Filner said it.  He said "Who deserves what and 
at what time?"  This is, as you pointed out, not a unique group.  
There are other groups who for various reasons have not received 
veterans benefits at the time when they needed them either through 
the controversy or the amount of time it took to make a 
deliberation on eligibility.
	World War II Merchant Mariners took a long time.  You talk to 
Vietnam veterans exposed to agent orange who suffered from cancer, 
they will tell you it took a long time to get justice too.  And 
there seems to be a tradition of when you make the decision you 
move forward, you do not look back.  So we would have concerns 
that if we do this monthly benefit without any constraints on 
eligibility other than you were there, you served, and you are 
alive today, or your spouse is alive, it would certainly open up 
the possibilities that you would deal with many, many more groups.
	I am old enough to remember that when I first came into this 
business that the World War I veterans, they would always have a 
bill, H.R. 1918, for a service pension.  And there was always 
great support for that, but it never came about.  So I know this 
is a very difficult situation for you.
	Mr. Bradley. Thank you very much.  I have no further 
questions.  If Mr. Udall or Ms. Berkley have no further questions, 
I would like to thank the panel and thank all three of the panels 
this afternoon.  And state that, without objection, statements by 
the following individuals and organizations will be entered into 
the record:  David Forte, Cleveland Marshall College of Law at 
Cleveland State University; Lino Graglia, University of Texas Law 
School; John Fee, Brigham Young University; the Disabled American 
Veterans; The American Legion; the Paralyzed Veterans of America; 
and the Vietnam Veterans of America.
	[The statements appear on p. 121, p. 130, p. 131, p. 135, p. 
136, and p. 149]

	Mr. Bradley.  I appreciate everyone's attendance this 
afternoon.  This Committee has a long tradition of bipartisanship, 
which I think you have seen on display here this afternoon.  On 
behalf of the other members and Mr. Miller, we all look forward to 
working with you to ensure a productive year.  And once again we 
thank you for your participation this afternoon.  And with that 
and with nothing further before this Subcommittee, I will adjourn 
the hearing and thank you.
	[Whereupon, at 3:00 p.m., the Subcommittee was adjourned.]

<GRAPHICS NOT AVAILABLE IN TIFF FORMAT>

</pre></body></html>
